               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Land Optimization — Northern
              Virginia District

                       Audit Report




                                         September 28, 2012
Report Number DA-AR-12-003
                                                                       September 28, 2012

                                                 Land Optimization – Northern Virginia
                                                                              District

                                                            Report Number DA-AR-12-003


BACKGROUND:
The U.S. Postal Service has more than         reviewed -- the Dulles Processing and
33,000 facilities nationwide, including       Distribution Center (P&DC) and land
more than 24,000 leased facilities.           slated for the Ashburn Main Post Office
These facilities occupy more than             -- have about 442,570 SF of excess
950,000,000 square feet (SF) of land.         land space or about 17 percent of the
                                              exterior space of those properties. By
Beginning in April 2008, the Postal           selling the excess land space, the
Service began a series of facility            Postal Service has a one-time
optimization efforts. The goals of those      opportunity to realize at least
efforts were to generate revenue and          $2,931,250 of increased revenue in the
reduce expenses. Through its                  Northern Virginia District. The Postal
optimization efforts, the Postal Service      Service initiated the process of selling
has the ability to reduce excess real         the Ashburn property on October 12,
property by selling or leasing Postal         2011.
Service-owned property and subleasing
or reassigning leased property. The           WHAT THE OIG RECOMMENDED:
Postal Service can also use these same        We recommended that the Postal
options to optimize land space.               Service initiate action to sell excess land
                                              space at the Dulles P&DC.
The Northern Virginia District has
185 facilities with about 14,000,000 SF       We are not making a recommendation
of land. Our objective was to identify        regarding the frequency for reporting
opportunities for the Postal Service to       results of excess space, building, and
optimize existing land in the Northern        land evaluations, because this issue
Virginia District to align with the current   was addressed in a prior report, Land
operating environment.                        Optimization ― Central Illinois District,
                                              (Report Number DA-AR-12-001, dated
WHAT THE OIG FOUND:                           September 19, 2012).
The Postal Service can improve
procedures for identifying and disposing      Link to view the entire report.
of excess land space in the Northern
Virginia District. While there is a
requirement to conduct excess space,
building, and land evaluations, there is
no specified frequency for reporting
those reviews. As a result, two of the six
Postal Service-owned properties
September 28, 2012


MEMORANDUM FOR:            DAVID C. FIELDS
                           VICE PRESIDENT, OPERATIONS, CAPITAL METRO
                           AREA

                           TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Land Optimization – Northern Virginia District
                           (Report Number DA-AR-12-003)

This report presents the results of our audit of Excess Land Space in the Northern
Virginia District (Project Number 11YG037DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental, and Sustainability, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    John F. Budzynski
    Corporate Audit and Response Management
Land Optimization –                                                                                  DA-AR-12-003
 Northern Virginia District



                                                 TABLE OF CONTENTS


Introduction ........................................................................................................................ 1

Conclusion ......................................................................................................................... 1

Excess Exterior Space ....................................................................................................... 2

Recommendation ............................................................................................................... 4

Management’s Comments ................................................................................................. 4

Evaluation of Management’s Comments ............................................................................ 5

Appendix A: Additional Information .................................................................................... 6

   Background .................................................................................................................... 6

   Objective, Scope, and Methodology ............................................................................... 7

   Prior Audit Coverage ...................................................................................................... 8

Appendix B: Monetary Impacts .......................................................................................... 9

Appendix C: Management’s Comments ........................................................................... 10
Land Optimization –                                                                    DA-AR-12-003
 Northern Virginia District



Introduction

This report presents the results of our audit addressing land optimization in the Northern
Virginia District (Project Number 11YG037DA000). Our objective was to identify
opportunities for the U.S. Postal Service to optimize existing land to align with the
current operating environment. This self-initiated audit addresses operational risk. See
Appendix A for additional information about this audit.

Postal Service facilities officials are responsible for reviewing useable excess space in
the Postal Service inventory.1 Area or other authorized personnel can approve a
property as being excess to Postal Service needs and are required to submit a written
recommendation to Realty Asset Management2 to dispose of the property. While ASM
13 requires Postal Service area and other authorized personnel to review and report
excess space, it does not state a required frequency for reporting properties determined
to be excess.

The Northern Virginia District has 185 facilities with more than 14,000,000 square feet
(SF) of land. Due to economic conditions and increased competition with traditional mail
products, the total mail volume in the Northern Virginia District decreased from about
1.7 billion pieces in fiscal year (FY) 2008 to about 1.4 billion pieces in FY 2011, a drop
of about 334,000 pieces, or 20 percent.

According to the Postal Service, it realized $180 million in revenue during FY 2010 from
reviews of building and land properties no longer necessary to meet operational needs.3
Given the liquidity challenges the Postal Service is currently facing, the agency has the
opportunity to re-evaluate its land needs and further capitalize on revenue opportunities
by reducing excess land space.

Conclusion

The Postal Service can improve procedures for identifying and disposing of excess land
space. Two of the six Postal Service-owned properties reviewed in the Northern Virginia
District -- the Dulles Processing and Distribution Center (P&DC) and land slated for the
Ashburn Main Post Office (MPO) -- have excess land space of 442,570 SF or about
17 percent of the exterior space of those properties. By initiating disposal action for
excess land space for these two properties, the Postal Service has a one-time
opportunity to realize a revenue increase of at least $2,931,250 in the Northern Virginia
District. The Postal Service initiated the process of selling the Ashburn property on
October 12, 2011.


1
  Administrative Support Manual (ASM) 13, Section 517, dated July 1999, updated with Postal Bulletin revisions
through December 1, 2011.
2
  The Postal Service Headquarters National Realty Asset and Lease Management team administers programs and
provides project support services for Postal Service leased and owned properties.
3
  Postal Service 2010 Comprehensive Statement on Postal Operations, page 29.
                                                           1
        This report has not yet been reviewed for release under FOIA or the Privacy
        Act. Distribution should be limited to those within the Postal Service with a
        need to know.
Land Optimization –                                                                       DA-AR-12-003
 Northern Virginia District



Excess Exterior Space

Of the six Postal Service-owned properties reviewed, two properties, land purchased for
the Ashburn MPO and land located at the Dulles P&DC, have excess land space of
442,570 SF. The land purchased for the Ashburn MPO has been unused since 2007,
and Postal Service officials identified the tract of land at the Dulles P&DC as excess.
For the remaining four properties, we calculated excess spaces on the earned customer
and parking spaces according to Postal Service policy.4 Two properties5 had excess
parking spaces less than 10,000 SF. These properties were excluded from our finding
based on a threshold that we established to identify properties with more than 10,000
SF as potential revenue-generating sources. The remaining two properties6 did not
have excess land.

While there is a requirement to conduct excess space, building, and land evaluations,
there is no specified frequency for reporting those reviews. We also identified this issue
in the U.S. Postal Service Office of Inspector General (OIG) audit report, Land
Optimization – Central Illinois District,7 which contains a recommendation to address the
issue.

             Table 1: Sites with Excess Land in the Northern Virginia District

                                                Site
                                              Square
                                              Footage Excess
                                                Per    Space
                                              County     (In   Percentage Value of
                                             Property square    of Excess  Excess
            Property Name                    Records footage)     Space     Space8
       Ashburn MPO (land only)                 246,550 246,550       100% $1,975,000
       Dulles P&DC                           2,392,315 196,020         8%    956,250
       Total                                 2,638,865 442,570        17% $2,931,250
     Source: OIG as of September 2012.

   The Postal Service purchased the land for a new Ashburn MPO for $2,529,700 in
    November 2007 but never approved funding for construction of the building. Instead
    of constructing a new building, the Postal Service placed the retail and carrier
    functions planned for the Ashburn property at the Dulles P&DC in Sterling, VA. The



4
   Postal Service Handbook AS-504, Space Requirements, Section 324.
5
  Joel T. Broyhill Post Office, Merrifield, VA and Chantilly Branch, Chantilly, VA.
6
   Woodbridge Post Office, Woodbridge, VA and Research & Development Engineering Building, Merrifield, VA.
7
   Report Number DA-AR-12-001, dated September 19, 2012.
8
   We used the advertised sale price of $1,975,000 as the value of the Ashburn land. We calculated the value of the
Dulles P&DC land by multiplying the dollar value per square foot by the amount of excess space. We used county
property records for the value of the overall property in calculating the per square foot price.


                                                          2
Land Optimization –                                                                      DA-AR-12-003
 Northern Virginia District


    Postal Service and OIG agreed that the Ashburn property was excess and the
    Postal Service initiated the process of selling the property in October 2011.9

   Postal Service officials identified 196,020 SF, about 4.5 acres, of land at the Dulles
    P&DC as unused land. Officials stated the land was initially held for local delivery
    routes; however, those needs were resolved. Although identified as excess land,
    Postal Service officials stated that due to planned commericial development near the
    property, it could be worth more in the future and decided to hold onto it. These
    officials also stated they were considering relocating operations from other facilities
    to the Dulles P&DC.

The Postal Service can improve procedures for disposing of excess land space. By
selling the excess land space, the Postal Service has a one-time opportunity to
realize at least $2,931,250 of increased revenue in the Northern Virginia District. See
Appendix B for details.




9
 Facilities personnel began the process to hire a firm to appraise the Ashburn property in October 2011. The
appraisal was completed in December 2011 and valued the land at $1,975,000.


                                                         3
Land Optimization –                                                                 DA-AR-12-003
 Northern Virginia District




   Photograph 1 — Ashburn Land                                    Photograph 2 — Dulles P&DC




  The Ashburn MPO site is vacant land. The Postal          The Dulles P&DC has 196,020 SF of excess space
  Service relocated the operations intended for this       as identified by the Postal Service in the
  site to the Dulles P&DC. The land represents             photograph. Source: Google.
  246,550 SF of excess space. Source: Google.


Recommendation

We recommend the vice president, Capital Metro Area Operations, in coordination with
the vice president, Facilities:

1. Initiate action to sell excess property at the Dulles Processing and Distribution
   Center.

Management’s Comments

Management disagreed with our recommendation stating that they have a process for
identifying potential land that is deemed to be no longer needed and is determined to be
marketable. Management believes that their process is adequate and intends to
continue following it. With respect to the excess property at the Dulles P&DC,
management does not believe it is in the best interest of the Postal Service to initiate
action to sell this property at this time.

Management also disagreed with the $2,931,250 of revenue that OIG believes could be
generated from the excess land identified at both the Ashburn site and the Dulles
P&DC. However, management agreed that there is 246,500 SF of unimproved land in
Ashburn that should be sold. Management stated they had already identified this site as
excess and had taken steps necessary to list the property for sale. They also stated that
the market value for the unimproved land in Ashburn, based on an independent
appraisal, is $1,840,000 versus a value suggested by the OIG of $1,975.000.

With respect to the second property located at the Dulles P&DC, management believed
that the entire property is required to support operational needs for future flexibility and
therefore, disagreed with pursuing a sale of the property to obtain $956,250 of potential


                                                       4
Land Optimization –                                                                         DA-AR-12-003
 Northern Virginia District


value. Management stated that gaining network facilities need to keep any and all
excess land to provide flexibility to carry out future optimization efforts. Management
also believed that in order for optimization to be successful, the receiving property must
allow for the incoming operations that will create the need for additional parking and
possible plant expansion. Management did not believe this is possible if they proceed
with OIG's recommendation to sell the land. See Appendix C for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive to the finding and
recommendation in the report. The OIG considers the recommendation significant and,
therefore, requires OIG concurrence before closure. We view the disagreement with this
recommendation as unresolved but do not plan to pursue it through the formal audit
resolution process and are closing this recommendation with the issuance of this report.

Management disagreed with our recommendation to initiate action to sell excess
property at the Dulles P&DC, because this facility is gaining additional operations as
part of their network optimization efforts. They deemed that the entire property is
required to support operational needs for future flexibility and the potential need for
additional parking and possible plant expansion. While the OIG agrees it is important for
the Postal Service to have flexibility in its network optimization implementation efforts, it
is also important for the Postal Service to explore every opportunity to generate revenue
based on its current financial condition. Selling unused land could generate revenues to
fund operations. Accordingly, we believe management should give careful consideration
prior to determining that any excess land should not be sold. If the decision is made not
to sell the excess property at the Dulles P&DC, management should re-evaluate its
decision subsequent to planned network optimization efforts.

Management agreed that there are 246,500 SF of unimproved land in Ashburn that
should be sold. However, management stated that the market value of the unimproved
Ashburn land, based on an independent appraisal is $1,840,000 versus a value
suggested by the OIG of $1,975.000. The $1,975,000 used in our report is the price the
property is listed for on the USPS Properties for Sale website.10 OIG believes that the
property selling price more closely approximates the amount of revenue to be generated
from the sale due to potential commercial growth and the expansion of public
transportation to the area.




10
     http://www.uspspropertiesforsale.com/default.asp?f=listing_details&listingid=280894&listingtype=5


                                                            5
Land Optimization –                                                     DA-AR-12-003
 Northern Virginia District



                                  Appendix A: Additional Information

Background

The Postal Service has more than 33,000 properties nationwide, including more than
24,000 leased properties. These properties occupy more than 950,000,000 SF of land.
The Northern Virginia District has 185 facilities with about 14,000,000 SF of land.

In April 2008, the vice president, Facilities, initiated the Facility Optimization Program to
balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The process entails identifying, investigating, analyzing, and
approving interior space before executing the approved optimization action.11

Established in May 2009, the Station and Branch Optimization and Consolidation
Initiative Program provides tools and strategies for evaluating the effectiveness of
Postal Service’s retail placement in support of the 2006-2010 Strategic Transformation
Plan’s goal of improving service and increasing revenue. In addition, the Postal Service
initiated the Delivery Unit Optimization in December 2010 for relocating delivery
operations into larger offices that had excess space to increase operational
efficiencies.12

In June 2011, the Postal Service began the Delivering Results, Innovation, Value, and
Efficiency (DRIVE) initiative. DRIVE is a management process the Postal Service is
using to improve business strategy development and execution and is broken down into
eight priorities. The Infrastructure and Operations Optimization strategic priority includes
an initiative related to facilities management and disposal. The objectives of the
Facilities DRIVE initiative are to:13

    Generate revenue and reduce expenses by selling owned buildings, terminating
     leases, and eliminating facility operating costs.

    Reduce the inventory square footage of facilities.




11
   Optimization of Postal Facilities presentation, October 1, 2008.
12
   Postal Service, Delivery Unit Optimization, page 2, 2010.
13
   Postal Service, DRIVE, pages 1 and 4, 2011.


                                                            6
Land Optimization –                                                                      DA-AR-12-003
 Northern Virginia District



Through the optimization efforts, the Postal Service has the ability to reduce excess
interior space through:14

    Disposing of or selling of property.
    Outleasing (leasing Postal Service-owned property).
    Subleasing/reassigning leased property.

The Postal Service could use these same options to optimize exterior space.

Objective, Scope, and Methodology

Our objective was to identify opportunities for the Postal Service to optimize existing
land in the Northern Virginia District to align with the current operating environment. We
judgmentally selected 14 sites15 in the Northern Virginia District for review. We
selected eight sites because their cumulative total excess square footage accounts for
50 percent of the district’s excess square footage. We selected the remaining six sites
because either no exterior square footage was recorded in the electronic Facilities
Management System (eFMS)16 for the property, or the sites were classified as land
parcels only. Based on discussions with Postal Service Facilities personnel during the
review, we decided to focus on the six owned sites. The owned sites provided the
Postal Service the greatest opportunity to optimize exterior excess space.

To accomplish our objective we reviewed applicable policies and procedures, visited
selected sites, conducted interviews, and examined aerial photographs obtained to
document undeveloped excess exterior space at existing facilities. If the land appeared
to be unusable17 we did not include it in our determination of excess SF.

We calculated excess spaces on the earned customer and parking spaces according to
Postal Service policy. All earned customer parking was based on earned retail
workstations; rented Post Office Boxes; and Postal Service policy.18 We verified the
number of postal vehicles assigned and peak hour on-duty employees, additional
employees used during tour turnover, and the number of carrier routes and large
volume firm mailers that mail at the same time during site visits against data from
various Postal Service databases. After determining the square footage of excess
parking spaces (employee and customer), we subtracted calculated earned parking
spaces from total space allotted for parking.




14
   ASM-517.
15
   Six of the sites were owned and eight of the sites were leased.
16
   The eFMS database is the official Postal Service record for real property inventory and is used to manage all
property related projects including acquisition, disposal, and repairs.
17
   Examples of unusable land include land used for retaining ponds and land without direct access to a roadway.
18
   Handbook AS-503, Standard Design Criteria, Section 1-2.4, Parking and Drives (July 17, 2010); Handbook AS-
504, Section 324; and Handbook RE-4, Standards for Facility Accessibility, Section 502, Parking Spaces (March
2005).


                                                         7
Land Optimization –                                                                        DA-AR-12-003
 Northern Virginia District


We conducted this performance audit from June 2011 through September 201219 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusion based on our audit objective. We discussed our observations
and conclusions with management on August 24, 2012, and included their comments
where appropriate.

We assessed the reliability of eFMS property data by comparing the data to county
property data. While we noted some discrepancies, we determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

No audits were conducted examining excess land space within the past 3 years.




19
  Fieldwork for this project was delayed when the Postal Service revised its plan to rationalize the mail processing
facility network.


                                                           8
Land Optimization –                                                       DA-AR-12-003
 Northern Virginia District



                                  Appendix B: Monetary Impacts

                   Recommendation              Impact Category       Amount
                         1                    Increased Revenue      $2,931,250

The Postal Service could realize revenue of $2,931,250 by initiating the disposal of
excess land space at the Dulles P&DC and land slated for the Ashburn MPO (see
Table 2). The Postal Service initiated the process of selling the Ashburn property on
October 12, 2011. We used the advertised sale price of $1,975,000 to calculate the
monetary impact for the Ashburn land. We calculated the monetary impact for the
Dulles P&DC land by multiplying the dollar value per square foot by the amount of
excess space. We used county property records for the value of the overall property in
calculating the per square foot price.

                     Table 2: Calculation of One-Time Monetary Impact

                                Site
                              Square                       Dollar Square
                              Footage                      Value  Footage
                                Per                         Per     of        Value of
           Property           County         Value of     Square Excess       Excess
            Name              Records        Property     Footage Space        Space
           Ashburn
             MPO
                               246,550       $1,975,000     $8.01   246,550   $1,975,000
             (land
             only)
            Dulles
                              2,392,315      11,670,500     $4.88   196,020       956,250
            P&DC
            Total             2,638,865 $13,510,500                 442,570   $2,931,250
        Source: OIG, as of September 2012.




                                                    9
Land Optimization –                                               DA-AR-12-003
 Northern Virginia District


                              Appendix C: Management’s Comments




                                             10
Land Optimization –                DA-AR-12-003
 Northern Virginia District




                              1




                              11
